Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





NURSING HOME ENFORCEMENT:

      APPLICATION OF 

   MANDATORY REMEDIES





                    Daniel R. Levinson

                    Inspector General 


                       May 2006

                     OEI-06-03-00410

                   Office of Inspector General 

                                        http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within HHS. OCIG also
represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops compliance programs, renders
advisory opinions on OIG sanctions to the health care community, and issues fraud alerts and
other industry guidance.
  Δ         E X E C U T I V E                               S U M M A R Y                                               



                    OBJECTIVE
                    To determine the extent to which the Centers for Medicare & Medicaid
                    Services (CMS) applied the statutorily required “mandatory remedies” for
                    nursing homes not in compliance with Federal quality of care standards.


                    BACKGROUND
                    The Omnibus Budget Reconciliation Act of 1987 established a survey and
                    certification process to maintain Federal standards in nursing homes
                    certified for participation in the Medicare and/or Medicaid programs.
                    CMS contracts with States to certify compliance by surveying facilities.
                    When facilities are found to be out of compliance for designated time
                    periods or have deficiencies that are considered to put residents in
                    immediate jeopardy, States are required to refer case information to CMS
                    for enforcement action. Mandatory remedies are enforcement actions that
                    CMS is statutorily required to take to address these particularly
                    egregious or extended cases of noncompliance. Mandatory remedies
                    include termination of the facility’s Medicare contract and the denial of
                    payment for new admissions (DPNA). CMS depends upon the States to
                    inform its regional offices when enforcement action is warranted in time
                    for the regional offices to take action. Therefore, CMS evaluates State
                    performance annually using criteria that measure States’ effectiveness in
                    referring, in a timely manner, cases that require imposition of remedies.

                    For this inspection, we reviewed all nursing home enforcement cases that
                    required termination in 2000-2002 and all cases that required DPNA
                    remedies in 2002. We also evaluated State Performance Review (SPR)
                    data for 2002-2004 and conducted interviews with State and CMS staff.


                    FINDINGS
                    Of the 55 cases requiring termination during 2000-2002, CMS did not
                    apply the mandatory remedy as required in 30 cases (55 percent).
                    CMS is required to terminate nursing homes that fail to return to
                    “substantial compliance” within 6 months, or have unabated immediate
                    jeopardy deficiencies for 23 days. We found that 23 cases that required
                    termination because they were noncompliant for 6 months were not
                    terminated; these facilities returned to compliance on average 17 days
                    after the termination should have been applied. Seven cases with
                    unabated immediate jeopardy deficiencies were not terminated; these



OEI-06-03-00410     N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   i
    E X E C U T I V E                   S U           M M A R Y


                  facilities removed the immediate jeopardy within 7 days after the
                  termination should have been applied.
                  Through reviews of surveys following our study period, we found that all
                  of the facilities not terminated had, in subsequent surveys, new cases of
                  noncompliance serious enough to again require referral to CMS for
                  enforcement action. Reasons for not terminating include late referral by
                  States and reluctance by CMS staff to take action that would result in
                  removing residents from the facility.
                  Of the 706 cases requiring DPNA remedies in 2002, 28 percent were
                  never applied and 14 percent were applied late, largely due to late
                  referral of cases by State survey agencies. CMS is required to apply
                  the DPNA remedy for facilities that fail to return to substantial
                  compliance within 3 months. In those instances for which the mandatory
                  remedy was never applied, the facilities were out of compliance an
                  average of 19 days past the required date to begin denying payments. In
                  those instances in which the mandatory remedy was applied late, the
                  facilities were out of compliance an average of 40 days past the required
                  date to begin denying payments. In both situations, facilities were
                  allowed to receive payment past the required date.

                  In addition, in 95 percent of cases for which mandatory DPNA was
                  handled inappropriately, States did not refer cases to CMS on time.
                  CMS’s SPRs also found late case referral by States. In 2002, our primary
                  study period, the SPR data showed that 38 of the 48 States that had cases
                  requiring the DPNA did not meet the SPR standard of referring 95
                  percent of these cases on time. After CMS eased the standard in 2003
                  and again in 2004, 24 States still did not meet the performance standard
                  regarding timely completion of these referral tasks in 2003, and 10 States
                  did not meet the current standard of referring 80 percent of their cases on
                  time in 2004.




OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   ii
           E X E C U T I V E                              S U M M A R Y 





                    RECOMMENDATIONS
                    CMS should ensure that facilities facing termination either reach
                    compliance or are terminated within required timeframes. This effort
                    could include encouraging State survey agencies to further prioritize
                    termination cases, raising awareness of termination deadlines among
                    CMS and State staff, and special monitoring of pending termination cases
                    by CMS regional offices.
                    CMS should address late referral of enforcement cases by States to
                    ensure that mandatory remedies are applied as required. CMS should
                    issue a written directive to States to reinforce referral requirements,
                    increase monitoring of State referral timeliness using shared data
                    systems, and promote stronger adherence to the SPR standards regarding
                    case referral. CMS should also strongly consider raising the SPR
                    standards for timely case referral.


                    AGENCY COMMENTS
                    While CMS agrees that enforcement and the timely remedy of identified
                    problems in nursing homes are very important, it did not concur with all
                    of our recommendations. In its comments, CMS identifies efforts recently
                    underway or soon to be implemented to address timeliness issues.
                    However, contrary to our recommendation regarding facility termination,
                    CMS notes that it does not expect to make a great deal of change with
                    respect to its implementation of this remedy. Instead, it will continue to
                    apply the remedy in a manner that it believes best protects the well-being
                    of residents.


                    OFFICE OF INSPECTOR GENERAL RESPONSE
                    We recognize that since this inspection concluded, CMS has taken a
                    number of positive steps toward ensuring that deadlines are met.
                    However, we are concerned about CMS’s implied interpretation that the
                    deadlines for mandatory termination are flexible. While exceptional cases
                    may exist, the 6-month termination requirement is statutory and the 23
                    day termination is in current regulation. We believe that CMS, through
                    active case management and earlier intervention, can motivate
                    improvements and lasting corrections within the required timeframes for
                    termination of facilities.


OEI-06-03-00410     N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   iii
Δ   T A B L E                 O F               C O N T E N T S                                                    





                  EXECUTIVE SUMMARY .................................... i 



                  INTRODUCTION ........................................... 1



                  FINDINGS ................................................. 7

                              Mandatory Termination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                              Mandatory Denial of Payment for New Admissions . . . . . . . . . . . . 8 


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                              Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                              Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . . 14 


                  E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                              A. Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                              B. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26





    OEI-06-03-00410                   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S
     Δ            I N T R O D U C T I O N                                                     




                         OBJECTIVE
                         To determine the extent to which the Centers for Medicare & Medicaid
                         Services (CMS) applied the statutorily required “mandatory remedies” for
                         nursing homes not in compliance with Federal quality of care standards.1


                         BACKGROUND
                         This inspection is part of the Office of Inspector General’s (OIG) ongoing
                         evaluation of the quality of care provided to nursing home residents,
                         particularly as measured by CMS’s enforcement of survey deficiencies.
                         Enforcement Process

                         Titles 18 and 19 of the Social Security Act (the Act), as amended by the
                         Omnibus Budget Reconciliation Act of 1987, establishes a survey and
                         certification process to verify that Federal standards are maintained in
                         Medicare and/or Medicaid certified nursing homes. The Secretary of the
                         Department of Health and Human Services, through CMS, is responsible
                         for assuring that these requirements and their enforcement “are adequate
                         to protect the health, safety, welfare, and rights of residents and to
                         promote the effective and efficient use of public moneys.”2 To accomplish
                         this, CMS contracts with State agencies to survey each participating
                         facility no less than once every 15 months to certify compliance.3
                         Additional surveys are also used to investigate complaints from residents,
                         their families, or the general public.

                         Deficiencies identified during a survey are evaluated against a set of
                         factors to determine a scope and severity rating.4 CMS created the Scope
                         and Severity Grid (Table 1) so that deficiencies could be ranked in
                         accordance with outcomes, such as harm to patients and prevalence.5 The
                         scope and severity level of the highest deficiency is considered in
                         conjunction with the facility’s compliance history to determine the
                         appropriate enforcement actions.6
                         The Act lists several remedies that may be applied when a facility is not
                         in “substantial compliance” with the requirements for participation in the
                         Medicare and Medicaid programs.7 A facility is not in substantial
                         compliance if the survey finds deficiencies that pose immediate jeopardy,
                         actual harm, or potential for more than minimal harm to patients.8 The
                         shaded portion of Table 1 comprises an additional severity category,


OEI-06-03-00410          N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   1
       I N T R O D U C T I O N 


                  “substandard quality of care.” This includes deficiencies in resident
                  behavior and facility practices, quality of life, and quality of care.9



                                                                                       Table 1

                                                  Scope and Severity Grid for Deficiencies
                                                                                                                 Deficiency Scope
                                   Deficiency Severity
                                                                                             Isolated                 Pattern       Widespread

                  Actual or potential for death or serious
                                                                                                  J                       K             L
                  injury (immediate jeopardy)

                  Actual harm that is not immediate
                                                                                                  G                       H             I
                  jeopardy


                  Potential for more than minimal harm                                            D                       E             F


                  Potential for minimal harm, substantial
                  compliance exists                                                               A                       B             C


                  Source: CMS State Operations Manual, Chapter 7.



                  To initiate the Act’s enforcement requirements, States must refer
                  enforcement cases to CMS regional offices.10 An enforcement “case”
                  includes all enforcement activity with respect to a particular facility
                  during a continuous period of noncompliance. Once the State refers a
                  case, CMS determines what enforcement actions are warranted for each
                  case. In addition to mandatory remedies, CMS may choose to apply
                  discretionary, or optional, remedies such as civil money penalties.
                  Mandatory Remedies

                  “Mandatory remedies” are enforcement actions that the Act requires CMS
                  to use to address particularly egregious or extended cases of
                  noncompliance.11 For these cases, the Act sets forth the types of remedies
                  that must be applied. For purposes of this report, we use the term
                  “applied” to indicate the action of putting mandatory remedies into effect.

                  The four circumstances that require mandatory remedies and the
                  remedies that must be applied are as follows:
                  Immediate Jeopardy. If, within 23 days of the initial finding, a facility fails
                  to eliminate a deficiency deemed to pose immediate jeopardy or fails to
                  reduce the deficiency to the point that it no longer poses a threat of actual
                  harm, CMS must either terminate the facility’s Medicare contract or
                  appoint a temporary manager to remove the immediate jeopardy and

OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S                      2
              I N T R O D U C T I O N 


                     correct the deficiencies.12 To terminate a facility in this circumstance, the
                     State must refer the case to CMS within 2 days of the finding of
                     immediate jeopardy, conduct a revisit to determine whether the jeopardy
                     was abated, and report its finding to CMS. If the immediate jeopardy
                     condition is not abated, CMS must notify the facility 2 days prior to the
                     termination.13
                     Three Months of Noncompliance. For all facilities that fail to reach
                     substantial compliance within 3 months after the initial deficiency, CMS
                     must apply the mandatory denial of payment for new admissions (DPNA)
                     remedy.14 Before CMS can apply this remedy, the State must conduct a
                     revisit, and if the facility is still out of compliance, refer the case to CMS.
                     CMS must then notify the facility 15 days prior to application of the
                     remedy, which should occur at the end of the 3-month period.15
                     Six Months of Noncompliance. For all facilities that fail to reach substantial
                     compliance within 6 months after the initial deficiency, CMS is required
                     to terminate the Medicare contract.16 This type of case arises when the
                     facility still has not reached compliance after application of the required
                     DPNA at 3 months. To terminate a facility in this circumstance, the
                     State must conduct a revisit, and if the facility is still out of compliance,
                     refer the case to CMS. CMS must then notify the facility 15 days prior to
                     the termination, which should occur at the end of the 6-month period.17
                     Repeated Substandard Quality of Care. For all facilities found to have
                     provided substandard quality of care on the last three consecutive
                     standard surveys, CMS must apply the remedies of DPNA and State
                     monitoring of the facility.18 Additionally, the State must notify the
                     attending physician of each affected resident and the State licensing
                     board.19 To apply the DPNA, the State must refer the case to CMS
                     following the third finding of substandard quality of care. CMS must
                     then notify the facility 15 days prior to application of the remedy.
                     Timely Notice to Facilities

                     CMS must notify nursing homes prior to applying a mandatory remedy.20
                     For immediate jeopardy cases, notice must occur at least 2 days prior to
                     applying the remedy. For all other cases requiring mandatory remedies,
                     notice must be sent 15 days prior to applying the remedy, e.g., on day
                     75 for 3 months of noncompliance.

                     CMS must receive a case referral from the State survey agency in
                     sufficient time prior to the notice period to apply the remedies on time.
                     States must also notify facilities that they have referred the case to CMS
                     and that a particular remedy is mandated. The CMS central office policy


OEI-06-03-00410      N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   3
       I N T R O
               
 D U C T I O N

                  allows CMS regional offices to approve the State sending a letter that
                  serves as the “official” notice to facilities.21
                  To meet referral deadlines for mandatory DPNA cases specifically, the
                  State Performance Review (SPR) standards in effect during our study
                  period required States to conduct a revisit within 60 days of the initial
                  finding of noncompliance.22 If the revisit reveals that the facility is still
                  noncompliant, in accordance with the SPR, States must refer the case
                  information to CMS within 70 days of the initial finding of
                  noncompliance. Adherence to this timeframe provides CMS with 5 days
                  to send the 15-day notice to facilities (75th day) prior to applying the
                  DPNA on the 90th day of noncompliance.
                  Applying Mandatory Remedies Late

                  Based on CMS central office managers’ interpretation of the regulation,
                  as reported in interviews, mandatory remedies can still be applied when
                  CMS regional offices are late in providing notice but only if both of the
                  following criteria are met: (1) the required 2-or 15-day notice was
                  ultimately sent and the notice period has elapsed; and (2) the facility is
                  still out of compliance when the notice period has elapsed. Therefore,
                  mandatory remedies cannot be applied retroactively in cases in which the
                  facility reaches substantial compliance before CMS applies the remedy.23
                  In such cases, CMS can still choose to apply a civil money penalty.
                  State Performance Review

                  CMS evaluates State survey agency performance in nursing home
                  enforcement by using criteria based in regulation and contained within
                  the SPR.24 The SPR includes three particular measures that are relevant
                  to this inspection:
                  Timeliness of Referral of Unabated Immediate Jeopardy Cases.25 To meet the
                  expected performance level, States must refer cases within 2 days of an
                  immediate jeopardy deficiency finding and follow all necessary procedures
                  to ensure terminations can occur within the 23-day timeframe in
                  95 percent of cases in which facilities fail to remove the immediate
                  jeopardy deficiency.26
                  Timeliness of Referral and Notification in DPNA Cases. During our study
                  period of 2002, State agencies were required to conduct facility revisits by
                  the 60th day of noncompliance, and either send deficiency information to
                  CMS or send an approved notice of the remedy to the facility within
                  70 days of the end of the survey for 95 percent of cases. Therefore, a




OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   4
          I N T R O D U C T I O N


                   typical case requiring the DPNA might unfold as follows: the State refers
                   the case on the 70th day, giving CMS up to 5 days to send the facility
                   notice (75th day), which would allow the facility 15 days notice prior to
                   imposing the DPNA within the time required (90th day). In 2003, CMS
                   changed the SPR criteria for referring DPNA cases by lowering the
                   requirement from 95 percent to 80 percent of cases referred on time.27 In
                   2004, CMS changed the standard further by omitting the requirement
                   that States conduct facility revisits by the 60th day of noncompliance.28
                   Timeliness of Referral of 6-month Noncompliance Cases. State agencies must
                   follow appropriate termination procedures for 80 percent of applicable
                   cases.29 This requires sending deficiency information to CMS or sending
                   an approved notice of the remedy to the facility within 70 days, allowing
                   for the required 15-day notice period. Therefore, a typical case requiring
                   termination for 6 months of noncompliance might unfold as follows: the
                   State refers the case on the 160th day (70 days after the application of the
                   DPNA on the 90th day), giving CMS up to 5 days to send the facility notice
                   (165th day), which would allow the facility 15 days notice prior to
                   termination within the time required (180th day).
                   Data Systems

                   Case information is maintained through data systems shared by CMS and
                   States. Traditionally, CMS has used the Online Survey, Certification,
                   and Reporting (OSCAR) system to record the results of standard,
                   complaint, and revisit surveys. More recently, CMS has employed the
                   Automated Survey Processing Environment (ASPEN), which allows
                   States and CMS to input and access both survey results and enforcement
                   information. State surveyors enter survey findings into a local ASPEN
                   database, then upload the data into a central ASPEN system (and also
                   into OSCAR). Enforcement case information in ASPEN is accessible to
                   CMS regional office staff through the ASPEN Enforcement Module
                   (AEM), implemented in October 2004. The AEM includes several
                   reporting functions that facilitate case monitoring, including reports
                   focused on the DPNA remedy.




OEI-06-03-00410    N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   5
          I N T R O D U C T I O N 

           I N T R O D U C T I O N


                   METHODOLOGY
                   Following preliminary analysis of enforcement data, we narrowed the
                   scope of our inspection to focus on the most common circumstances and
                   remedies. This report addresses the three most common circumstances
                   warranting mandatory remedies (immediate jeopardy, 3 months of
                   continued noncompliance, and 6 months of continued noncompliance). We
                   excluded from our review cases of repeated substandard quality of care
                   because only a few occur each year. This study also does not examine
                   cases for which only discretionary remedies were used, those that States
                   failed to refer to CMS for enforcement, or Medicaid-only cases.
                   For this inspection we reviewed CMS data for all enforcement cases that
                   began in calendar years 2000, 2001, and 2002 to identify cases that
                   required mandatory remedies. We found 55 cases warranting
                   termination during the study period and 2,140 cases warranting
                   mandatory DPNA remedies. We reviewed all 55 termination cases and
                   limited our analysis of mandatory DPNA cases to the 706 cases begun in
                   2002. We then collected documentation for all cases for which data
                   indicated that CMS did not apply remedies as required, and interviewed
                   CMS regional and central office staff regarding procedures for applying
                   mandatory remedies. To verify our findings regarding State referral of
                   enforcement cases, we evaluated all State Agency Performance
                   Evaluation records for 2002 and for its successor, the SPR, in 2003 and
                   2004. Because we analyzed all cases and not a sample, all data reported
                   within this report represent actual cases, not estimates or projections. A
                   detailed methodology is included in Appendix A.
                   Standards

                   We conducted this inspection in accordance with the “Quality Standards
                   for Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




OEI-06-03-00410    N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   6
   Δ         F I N D I N G S
                                                           CMS must terminate facilities that
       CMS did not terminate the facility in 30 of         remain out of substantial compliance
       the 55 cases requiring termination during           for more than 6 months or do not
                  our study period of 2000–2002            remove an immediate jeopardy
                                                           deficiency within 23 days. Few
                       facilities warranted termination during our study period. However,
                       termination did not occur in 30 of the 55 cases in which it was required
                       (55 percent). Twenty-three of the thirty cases involved facilities that were
                       out of substantial compliance for 6 months, and the other seven cases
                       involved facilities that had not succeeded in removing immediate jeopardy
                       deficiencies within 23 days.
                       Reasons for not terminating as required include late referral by States and
                       CMS staff reluctance to displace facility residents

                       While we are not able to determine the exact cause of CMS’s failure to
                       terminate in each case, several factors appear to contribute to the lack of
                       action. In a number of cases, States did not refer cases to CMS
                       sufficiently in advance of the required date and the facilities were allowed
                       to return to compliance late. States referred cases late in 5 of the
                       7 immediate jeopardy cases and in 4 of the 23 6-month noncompliance
                       cases. Even when referrals were timely, CMS staff reported that
                       procedural delays could occur for a number of reasons, such as the
                       handling of cases by multiple staff members.

                       Also, some CMS regional office staff reported that, in their reluctance to
                       displace residents, they might opt to delay termination if they believed
                       the facility would soon come back into compliance. Indeed, facilities that
                       CMS did not terminate as required did return to compliance shortly after
                       the date they should have been terminated. The 23 cases that were not
                       terminated after continued noncompliance returned to substantial
                       compliance an average of 17 days after the 6-month mark, and all 7 cases
                       that were not terminated after uncorrected immediate jeopardy
                       deficiencies reached compliance within 7 additional days.
                       All facilities not terminated were found to be out of compliance again

                       For the 29 facilities involved in the 30 cases that were not terminated as
                       required, we reviewed all available subsequent surveys through May 31,
                       2005. We found that all of the facilities that were not terminated had
                       new cases of noncompliance serious enough to again require referral to
                       CMS for enforcement action, including cases of extended noncompliance
                       and immediate jeopardy to residents. Ten of the twenty-nine facilities
                       were subsequently cited with immediate jeopardy deficiencies, and in one
                       case the facility was cited with an immediate jeopardy deficiency four

OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   7
          F I N D I N G S                        


                      times in consecutive years. Additionally, many of the facilities required
                      referral to CMS multiple times—14 of the 29 facilities had deficiencies
                      that warranted referral to CMS in 3 or more subsequent surveys.

                                                          CMS must apply the DPNA for
Of the 706 DPNA cases in 2002, 28 percent were
                                                          facilities that fail to return to
 never applied and 14 percent were applied late,
                                                          substantial compliance within 3
            due largely to late referral by States        months. The remedy denies Medicare
                      payment for residents newly admitted while the facility is out of
                      compliance. Delays in applying denials of payment allow facilities more
                      time than regulation permits to return to compliance and avoid the
                      remedy.
                      Forty-two percent of DPNA remedies were never applied or were applied
                      late

                      Of the 706 cases in 2002 which should have received a DPNA remedy,
                      CMS applied the remedy on time in 58 percent of cases. CMS never
                      applied the remedy in 28 percent of cases; these facilities came back into
                      compliance after the required date, but before CMS took action. The
                      facilities were out of compliance an average of 111 days (19 days past the
                      required 3-month effective date of the remedy), allowing the facilities the
                      opportunity to erroneously receive payment for newly admitted residents
                      during the interim period.30 In the remaining 14 percent of cases, the
                      facilities were still out of compliance when CMS acted to put the remedy
                      into effect, so the required DPNA was applied late. These late remedies
                      were applied after an average of 132 days of noncompliance (40 days past
                      the required 3-month effective date of the remedy) also allowing the
                      facilities the opportunity to erroneously receive payment.

                      Despite not applying this remedy on time in 42 percent of the cases, CMS
                      and State staff reported in interviews that they consider denial of
                      payment to be a very effective tool in enforcing nursing home standards.
                      Staff reported that, unlike other remedies such as civil money penalties,
                      denial of payment can cause facilities to turn away new residents and is
                      therefore likely to affect the image of the facility in the community and
                      among medical facilities that may refer clients.
                      Late referral of cases by States was the primary cause when DPNA
                      remedies were never applied or were applied late

                      In the 196 cases for which the DPNA was never applied, facilities
                      returned to compliance after the deadline but before notice was sent or
                      the notice period had elapsed. Case documents showed that late referral
                      by States caused delays in 92 percent of these cases (Table 2).


OEI-06-03-00410       N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   8
     F I N D I N G S                 



                  Referrals in these cases were sent an average of 28 days late, with the
                  latest case sent 101 days after the required date.31 For the remaining
                  8 percent of cases, States referred the cases on time, but CMS regional
                  offices still did not apply the mandatory DPNA remedies. In interviews,
                  CMS staff reported a number of possible problems, including notice
                  letters not sent to facilities and staff turnover interrupting case tracking.

                  In the 102 cases for which the DPNA was applied late, the facilities were
                  still out of compliance when the case was referred to CMS by the State.
                  Late referral by State survey agencies was a cause of delay in 97 percent
                  of these cases. Referrals in these cases were sent an average of 18 days
                  late, with the latest case sent 82 days after the required date.32 Once
                  CMS received referrals from States for these cases, it began the DPNA
                  remedy after the required 15-day notice period to facilities.

                                                                Table 2
                                                DPNA Remedies Never Applied or Applied Late

                       Reasons for Never Applying                                                                             196 Cases
                       Late referral by State                                                                                       92%
                       -     Late referral by State the only reason                                                            -     87%
                       -     Late action by both State and CMS regional office                                                  -    5%
                       Late action by CMS regional office only                                                                   8%
                       Reasons for Applying Late                                                                              102 Cases
                       Late referral by State                                                                                       97%
                       Late action by CMS regional office                                                                            3%
                       Source: OIG analysis of 706 cases warranting DPNA remedy in 2002.


                  State staff were not able to document a cause for all late referrals in 2002,
                  but a late revisit by surveyors to the facility was the cause mentioned
                  most frequently by staff during case reviews and interviews. Other, less
                  prominent, causes for late referral reported by State or CMS regional
                  office staff include transmission errors when referrals are made
                  electronically, insufficient survey documentation that requires States to
                  resubmit case information, and State staff misunderstanding regarding
                  referral requirements.33 Two CMS regional offices reported ad hoc efforts
                  to track referrals through the ASPEN system, but no regional offices
                  reported routine, comprehensive monitoring of current enforcement cases
                  to determine if referrals were made by States when required.




OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S                9
        F I N D I N G S                    



                  State Performance Reviews by CMS confirm that States have problems
                  referring enforcement cases on time

                  The SPR data for 2002 reveals that 38 of the 48 States that had cases
                  warranting a mandatory DPNA remedy did not meet the standard for
                  timely referral of cases.34 In 2002, the SPR protocol required States to
                  conduct a revisit of facilities by the 60th day of noncompliance, then to
                  either send deficiency information to CMS or send an approved notice of
                  the remedy to the facility by the 70th day. To meet this standard, States
                  had to accomplish these tasks in 95 percent of cases warranting a
                  mandatory DPNA remedy.

                  Despite easing these SPR standards in 2003 and 2004, CMS reviews still
                  found a substantial number of States to be underperforming.35 In 2003,
                  24 States did not meet the standard for timely case referral although
                  CMS lowered the standard from 95 percent to 80 percent of applicable
                  cases. In 2004, 10 States still did not meet the performance standard
                  although CMS further changed it by requiring only that States refer
                  80 percent of cases by the 70th day and omitting the requirement to
                  conduct revisits within the 60th day of noncompliance.36
                  While the variable SPR standards make it inappropriate to compare State
                  performance across 2002-2004, it is evident that some States continue to
                  have problems with late referrals, and that even States passing the
                  current SPR standard could have late referrals in up to 20 percent of
                  cases. CMS has the ability to impose a variety of remedies and sanctions
                  on States that fail SPR criteria; yet six States failed the criteria for
                  referral timeliness in all 3 years we reviewed without CMS seeking any
                  remedies or sanctions.37




OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   10
       Δ          R E C O M M E N D A T I O N S 


                       Timely application of mandatory remedies encourages facilities to achieve
                       and sustain compliance with Federal quality standards and is essential to
                       CMS efforts to address noncompliance. However, facility terminations
                       did not occur as required in 55 percent of cases in 2000-2002, due to both
                       late case referral by States and CMS staff reluctance to impose this
                       severe remedy. All of these facilities were later referred to CMS for new
                       findings of noncompliance or immediate jeopardy. CMS also did not apply
                       the DPNA as required in 42 percent of cases in 2002. Late referral of
                       enforcement cases caused nearly all errors in applying mandatory DPNA
                       remedies. These errors allowed facilities the opportunity to receive
                       payment by Federal programs while out of compliance with resident care
                       standards.

                       To address these issues, OIG recommends the following:
                       CMS should ensure that all facilities facing termination either reach
                       compliance or are terminated within required timeframes

                       To strengthen its effectiveness in addressing these egregious or extended
                       cases of noncompliance, CMS should focus attention on termination cases
                       to better ensure that facilities reach compliance by the required date, or,
                       failing that, are terminated as required. This effort could include
                       encouraging State survey agencies to further prioritize termination cases,
                       raising awareness of termination deadlines among State and CMS staff,
                       and conducting special monitoring of pending terminations.
                       CMS should address late referral of nursing home enforcement cases by
                       States to ensure that mandatory remedies are applied as required

                       Guidance to States. CMS should make addressing the timely referral of
                       enforcement cases an organizational priority. CMS should issue a
                       program transmittal or other written guidance to reinforce for States the
                       Federal requirements for referring enforcement cases on time. This
                       directive should emphasize completing revisits on time, which was
                       identified as a common cause of late referral.
                       Routine Monitoring. CMS should actively monitor pending nursing home
                       enforcement cases. In interviews, no CMS regional office reported routine
                       use of ASPEN to monitor enforcement case referrals from States. To
                       accomplish this, CMS should make full use of the monitoring capabilities
                       of the ASPEN data management system. According to CMS staff, the
                       ASPEN system allows input and access by CMS central office, its regional
                       offices, and States, and includes enforcement case information in its
                       ASPEN enforcement module. Proactive use of ASPEN to monitor current


OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   11
            R E C O M M E N D A T I O N S 


                    enforcement cases would allow regional offices to address problems with
                    specific cases before it is too late to take action.

                    CMS regional offices should regularly utilize the reporting functions
                    available in ASPEN, including reports that can identify cases
                    approaching the DPNA deadlines. In addition, CMS should consider
                    developing an automated function in ASPEN that alerts both CMS
                    caseworkers and State staff when cases have reached the 70th day of
                    noncompliance. Such an automated alert or indicator would serve as a
                    reminder to State staff to refer the case and as a prompt for CMS staff to
                    ask States if they have sent the expected case documentation. Finally,
                    ASPEN allows CMS staff to review survey data online at any time,
                    including before a case is referred to the regional office. While not
                    practical in every case, this access could allow CMS staff to monitor the
                    status of facilities with particularly troublesome histories.
                    Use of State Performance Review. As part of the effort to address late
                    referrals, CMS should also promote stronger adherence to the SPR
                    standards. The SPR provides a potentially valuable tool for enforcing
                    State referral requirements, yet it is evident that some States have
                    continued to have problems with late referrals well after the time period
                    of our primary analysis (2002). CMS regional offices should fully enforce
                    the case referral standards contained in the SPR, including employing the
                    prescribed remedies and sanctions when States fall below the SPR
                    standards for timely referral. CMS should also consider focusing efforts
                    on underperforming States.

                    Finally, we believe that recent changes in the SPR standards regarding
                    referral timeliness make the SPR a less effective tool for identifying
                    States with problems referring cases. Currently, States could refer up to
                    20 percent of cases late, yet still pass the SPR standard. Considering that
                    late referrals are the primary cause when CMS does not apply DPNA
                    remedies as required, the SPR should promote a higher level of State
                    performance regarding this critical function. By restoring the
                    performance standard to 95 percent, CMS could further draw State
                    attention to correcting the problem, while still allowing for late referrals
                    under exceptional circumstances.




OEI-06-03-00410     N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   12
              R E C O M M E N D A T I O N S 



                     AGENCY COMMENTS
                     While CMS agrees that enforcement and the timely remedy of identified
                     problems in nursing homes are very important, it did not concur with all
                     of our recommendations.

                     In its comments, CMS identifies efforts recently underway or soon to be
                     implemented to address timeliness issues. First, CMS affirms that the
                     new ASPEN Enforcement Management System has improved its ability
                     to manage enforcement cases resulting in more mandatory DPNAs being
                     implemented timely. Additional changes to the State performance
                     standards and the strengthening of the Special Focus Facility program
                     signal the importance CMS places on nursing home quality of care. CMS
                     plans to begin a new internal triage review geared to strategically assess
                     individual cases at the 5-month point to identify any additional actions
                     that might help bring a facility back into compliance before the
                     termination deadline. CMS will also test a process to streamline the
                     required notification process to alleviate the difficulties associated with
                     timely implementation of the mandatory denial of payments for new
                     admissions.

                     Contrary to our recommendation regarding facility termination, CMS
                     notes that it does not expect to make a great deal of change with respect
                     to its implementation of this remedy. Instead, it will continue to apply
                     the remedy in a manner that it believes best protects the well-being of
                     residents. CMS cited specific difficulties in meeting the 6-month
                     timeframe for termination. These include new unrelated deficiencies
                     identified during the survey just prior to the termination date, the desire
                     to both meet the 15-day public notice requirement and to maximize the
                     facility’s opportunity to achieve compliance, and retention of the benefit of
                     what it terms the “crisis environment” in the final hours before
                     termination. CMS argues that imminent termination is instrumental in
                     making positive reforms by causing the facility to apply more resources to
                     correct deficiencies that led to termination.

                     The full text of CMS’s comments is presented in Appendix B.




OEI-06-03-00410      N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   13
                  R E C O M M E N D A T I O N S 





                        OFFICE OF INSPECTOR GENERAL RESPONSE
                        We recognize that since this inspection concluded, CMS has taken a
                        number of positive steps toward ensuring that deadlines are met. These
                        new steps, in addition to the planned actions, should assist CMS in
                        meeting the mandatory enforcement requirements on time in future
                        cases. However, we are concerned about CMS’s implied interpretation
                        that the deadlines for mandatory termination are flexible. While
                        exceptional cases may exist, the 6-month termination requirement is
                        statutory and the 23-day termination is in current regulation.
                        Consequently, we see no room for discretion in the application of this
                        remedy.

                        CMS supported its position on two fundamental grounds: (1) that it is
                        difficult to meet all scheduled timeframes and provide all reasonable
                        opportunities for the facility to achieve compliance prior to termination
                        and (2) that termination would be unnecessarily detrimental to the
                        nursing home residents, particularly when compliance was achieved
                        shortly after the termination deadline.

                        First, we believe that actions similar to those CMS plans to implement for
                        mandatory denials of payment, combined with active case management
                        can reduce the number of missed deadlines in termination cases. For
                        example, notification requirements can be streamlined so that they do not
                        impede surveyors’ abilities to conduct a final revisit. Additionally, CMS
                        can maintain the benefits of the “crisis environment,” which it believes
                        promotes corrective action, by beginning sooner in the process to make it
                        clear to facilities that decisive action will be taken. Second, we believe the
                        pattern of noncompliance observed for the facilities that achieved
                        compliance after the deadline, and thus were not terminated as required,
                        deserves attention. One facility in this inspection that received additional
                        time to achieve compliance was cited with an immediate jeopardy
                        deficiency in each of its next four consecutive surveys. Nine others were
                        cited with immediate jeopardy deficiencies during their very next survey.

                        Given these considerations, we believe that CMS, through active case
                        management and earlier intervention, can motivate improvements and
                        lasting corrections within the required timeframes for termination of
                        facilities.




OEI-06-03-00410         N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   14
  Δ         E N D N O T E S                                



                   1While the Social Security Act (the Act) does not use the term “mandatory
                   remedies,” CMS and the States use this term to distinguish between those
                   remedies that must be imposed under certain circumstances and those
                   remedies that CMS has the discretion to impose.

                   2   The Act, § 1819(f)(1).

                   3   42 CFR §§ 488.308 and 488.330.

                   442 CFR §§ 488.404, 488.406, and 488.408; Department of Health and
                   Human Services, Centers for Medicare & Medicare Services, State
                   Operations Manual (SOM), Chapter 7, § 7400E1 (2004).

                   5   The SOM, Chapter 7, § 7400E1.

                   6   42 CFR § 488.404.

                   7The Act, §§ 1819(h) and 1919(h). See also 42 CFR §§ 488.400, 488.406, and
                   488.408, and the SOM, Chapter 7, § 7400A.

                   8   42 CFR § 488.301.

                   9 “Substandard  quality of care means one or more deficiencies related to
                   participation requirements under § 483.15, Quality of life, or § 483.25,
                   Quality of care of this chapter, which constitute either immediate jeopardy to
                   resident health or safety; a pattern of widespread actual harm that is not
                   immediate jeopardy; or a widespread potential for more than minimal harm,
                   but less than immediate jeopardy, with no actual harm.” 42 CFR § 488.301.

                   10While there are circumstances in which an enforcement action can be
                   referred to the State Medicaid agency, e.g., cases involving Medicaid-only
                   facilities, this study examined only those cases in which the enforcement
                   action was referred to CMS. CMS guidelines set forth three case types for
                   referral: (1) immediate jeopardy cases, (2) cases in which facilities are not
                   given an opportunity to correct, but do not involve immediate jeopardy, and
                   (3) opportunity to correct cases which have failed to achieve subsequent
                   compliance. The SOM, Chapter 7, §§ 7308A, 7316A, and 7316B.

                   11   The Act, §§ 1819(h)(1)(A), 1819(h)(2)(D), 1819(h)(2)(C), and 1819(h)(2)(E).




OEI-06-03-00410         N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   15
                  12   42 CFR § 488.410(a), the SOM, Chapter 7, § 7301A.

                  13   The SOM, Chapter 7, §§ 7305B(3)(a) and 7309A.

                   The Act, § 1819(h)(2)(D); 42 CFR §§ 488.412(c) and 488.417(b); the SOM,
                  14

                  Chapter 7, §7506C

                  15The remedy is to be applied at the end of 3 full months, rather than after a
                  certain number of days. For example, if the deficiency is cited on January 1,
                  the denial of payment should be applied on April 1. “Policies about
                  Verification of Compliance and Setting 3-and 6-month Remedy Effective
                  Dates,” Memorandum S&C01-10, Center for Medicaid and State Operations,
                  Centers for Medicare & Medicaid Services, 2001.

                  16The Act, § 1819(h)(2)(c); 42 CFR §§ 488.412(a) and (b); the SOM, Chapter 7,
                  § 7556C

                  1742 CFR §§ 488.402(f)(4) and 488.456(c)(2); the SOM, Chapter 7, §
                  7305B3(b)

                  18 The Act, § 1819(h)(2)(E); 42 CFR §§ 488.414(a) and 488.417(b)(2). Certain
                  types of deficiencies may not fall within the definition of substandard quality
                  of care because they do not relate to resident behavior and facility practices
                  or quality of life or quality of care.

                  19 The        Act, § 1819(g)(5)(C); 42 CFR § 488.410(e).

                  20   42 CFR § 488.402(f).

                  21The [CMS] regional office or State Medicaid agency must provide formal
                  notice of the remedies imposed unless official notice has already been
                  provided by the State, as authorized by CMS and/or the State Medicaid
                  agency. The SOM, Chapter 7, § 7316B(4).

                  22 Centers for Medicare & Medicaid Services, Survey and Certification Group,
                  Center for Medicaid and State Operations, “State Agency Performance
                  Standards for Fiscal Year 2002,” (Standard 4, Emphasis B), REF:S&C-02-28
                  and “State Agency Performance Standards for Fiscal Year 2003,” (Standard
                  4, Emphasis B), REF: S&C-03-27.

                  23To understand this interpretation of policy, CMS staff in interviews
                  pointed to the following two regulations: 42 CFR § 488.417(d) states that




OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   16
                  “. . . [w]hen a facility does not have repeated instances of substandard quality
                  of care, payments to the facility or, under Medicaid, CMS payments to the
                  State on behalf of the facility, resume prospectively on the date that the
                  facility achieves substantial compliance, as indicated by a revisit or written
                  credible evidence acceptable to CMS (under Medicare) or the State (under
                  Medicaid) . . .” and 42 CFR §§ 488.402(f)(3) and (4) state that “. . . for all
                  remedies imposed when there is immediate jeopardy, the notice must be
                  given at least 2 calendar days before the effective date of the enforcement
                  action.” and “. . . notice must be given at least 15 calendar days before the
                  effective date of the enforcement action in situations in which there is no
                  immediate jeopardy.” CMS staff explained that mandatory remedies
                  therefore (1) cannot be applied to facilities that are in substantial compliance,
                  and (2) cannot be applied without proper notice.

                  24   The Act, § 1864, Article II(J); the SOM, Chapter 8, §§ 8000C and 8000D.

                  25Immediate jeopardy deficiencies that are downgraded to a scope and
                  severity level below immediate jeopardy upon citation are considered
                  “abated” and are not subject to these referral guidelines. Some CMS regional
                  offices request that States refer all immediate jeopardy cases, and may
                  choose to apply discretionary remedies, even in cases that were fully
                  corrected.

                  26 OIG analysis of the SPR results revealed that in 2004, 31 of the 33 States
                  (94 percent) that had unabated immediate jeopardy cases met the standard
                  of 95 percent referral as required.

                  27 Centersfor Medicare & Medicaid Services, Survey and Certification Group,
                  Center for Medicaid and State Operations, “State Agency Performance
                  Standards for Fiscal Year 2002,” (Standard 4, Emphasis B), REF:S&C-02-28
                  and “State Agency Performance Standards for Fiscal Year 2003,” (Standard
                  4, Emphasis B), REF: S&C-03-27.

                  28Centers for Medicare & Medicaid Services, Survey and Certification Group,
                  Center for Medicaid and State Operations, “State Agency Performance
                  Standards for Fiscal Year 2003,” (Standard 4, Emphasis B), REF: S&C-03-27
                  and “FY 2004 State Performance Review Protocol Guidance,” (Standard 4,
                  Emphasis B), REF: S&C-04-47.

                  29Centers for Medicare & Medicaid Services, Survey and Certification Group,
                  Center for Medicaid and State Operations, “State Agency Performance
                  Standards for Fiscal Year 2003,” (Standard 4, Emphasis B), REF: S&C-03-27




OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   17
                  and “FY 2004 State Performance Review Protocol Guidance,” (Standard 4,
                  Emphasis B), REF: S&C-04-47.

                  30Denial of payment for new admissions is to be applied at the end of 3 full
                  months. (“Policies about Verification of Compliance and Setting 3- and
                  6-month Remedy Effective Dates,” Memorandum S&C01-10, Center for
                  Medicaid and State Operations, Centers for Medicare & Medicaid Services,
                  2001.) We used 92 days for calculating expected application dates.

                  31 Due to incomplete data, average and maximum referral times are based on
                  171 of the 196 cases in which denial of payment was never applied.

                  32Due to incomplete data, average and maximum referral times are based on
                  75 of the 102 cases in which denial of payment was never applied.

                  33Timeliness is not the only problem with the State referral process. In the
                  report, “State Referral of Nursing Home Enforcement Cases” (OEI-06-02
                  00400), OIG found that while States referred most nursing home cases
                  warranting enforcement during the study period, an estimated 8 percent of
                  cases were not referred. Primary causes of nonreferral included State staff
                  misunderstanding referral requirements and attempted referrals that were
                  not recognized as such by CMS staff.

                  34OIG analysis of the 2002 State Agency Performance Evaluation results
                  provided by CMS regional offices.

                  35OIG analysis of the 2003 and 2004 State Performance Review results,
                  provided by CMS central office.

                  36OIG analysis of the SPR results includes 50 States and the District of
                  Columbia for a total of 51.

                  37These potential remedies and sanctions include submitting a corrective
                  plan of action, undergoing supplemental training, meeting with State
                  officials, and ultimately, facing reductions in Federal financial participation
                  and even the termination of their contract to survey facilities. The SOM,
                  Chapter 8, § 8000G, ( 2004).




OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   18
   Δ                A P P E N D I X                                   ~              A
  Δ A             P P E N D I X  ~                                   A

                        Detailed Methodology

                        We reviewed all nursing home enforcement cases that began in calendar
                        years 2000, 2001, and 2002 to identify those that required mandatory
                        remedies as a result of one of the four statutorily required conditions:
                        immediate jeopardy, noncompliance lasting 3 months, noncompliance
                        lasting 6 months, or a third instance of substandard quality of care.

                        We identified enforcement cases from CMS’s Online Survey,
                        Certification, and Reporting (OSCAR) system, and determined
                        enforcement activity from the Long Term Care Enforcement Tracking
                        System (LTC). The OSCAR system contains information collected
                        during nursing home surveys and complaint investigations conducted
                        by State agencies. This information includes survey dates, the type of
                        survey, cited deficiencies and the scope and severity of those
                        deficiencies, as well as demographic and historical information about
                        individual facilities. The LTC database is a compilation of each CMS
                        region’s nursing home enforcement case files. It contains basic facility
                        descriptors, as well as data from all stages of the enforcement
                        process⎯from receipt of a case in the CMS regional office to final
                        disposition.

                        Because the LTC database includes only cases that States have referred
                        to CMS, our analysis did not examine cases where the facility
                        successfully corrected its deficiencies after being given an opportunity to
                        correct or any cases not referred by States. We used State survey data
                        from OSCAR to identify the date a deficiency was found and
                        enforcement data from the LTC database to determine the date
                        remedies were applied.

                        For immediate jeopardy cases, we reviewed scope and severity ratings
                        in OSCAR and included any case which had not returned to compliance
                        or been terminated by the end of the 23rd day following the first day of
                        the survey visit. For cases requiring termination at the end of
                        6 months, we included those which were still out of compliance after
                        185 days instead of 180 days because there are 5 months which contain
                        31 days. Similarly, for cases requiring the DPNA remedies after
                        3 months, we allowed 92 days. (Because of the large number of cases
                        requiring the DPNA remedies, we narrowed our examination to cases in
                        2002.) Finally, we also used OSCAR deficiency data to identify facilities
                        that were cited for a third instance of substandard quality of care.




OEI-06-03-00410         N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   19
    A   P   P E N D   I X ~           A


                      From this universe of cases, we identified those which required
                      mandatory remedies. We found a total of 55 cases requiring
                      termination. These included 20 cases in which an immediate jeopardy
                      deficiency was identified during a survey, yet had not been corrected by
                      the 23rd day and 35 cases for which the facility was subject to
                      termination for failure to return to compliance within 6 months between
                      2000 and 2002. We initially identified 750 cases in 2002 requiring the
                      DPNA remedies. However, 44 were exempted from the remedy as a
                      result of settlements, informal dispute resolution, or because they were
                      terminated from the Medicare program altogether due to other, more
                      severe, enforcement cases, effectively sanctioning them for failing to
                      return to compliance. This exemption reduced the number of
                      mandatory DPNA cases for review to 706.

                      Once we identified the cases, we requested additional information from
                      States and CMS regional offices about cases for which no record of the
                      remedy existed in the data. We reviewed these cases further to confirm
                      that they met our criteria and warranted additional analysis. We then
                      considered additional LTC and OSCAR data elements and State and
                      CMS responses to ensure the remedies had not been rescinded as the
                      result of an appeal or informal dispute resolution.

                      Because there are many explanations for a case not facing a remedy
                      that might not be captured in administrative databases, we also
                      requested additional information from CMS regional offices to explain
                      what happened with each of the cases in this subset. Further, we
                      conducted structured interviews with CMS regional office staff to
                      determine why required remedies were not applied.

                      To verify our findings regarding State referral of enforcement cases, we
                      evaluated all State Agency Performance Evaluation records for 2002
                      and all records for its successor, the SPR, in 2003 and 2004.

                      This study does not examine Medicaid-only cases, cases for which only
                      discretionary remedies were indicated, or those that States failed to
                      refer to CMS for enforcement.




OEI-06-03-00410       N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   20
  Δ         A P P E N D I X                          ~            B

                    Agency Comments




OEI-06-03-00410     N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   21
    A P P E N D   I X ~ B 





OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   22
    A   P   P E N D   I X ~           B            





OEI-06-03-00410       N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   23
    A P P E N D   I X ~ B





OEI-06-03-00410   N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   24
    A   P   P E N D   I X ~           B            





OEI-06-03-00410       N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   25
       Δ          A C K N O W L E D G M E N T S 


                       This report was prepared under the direction of Judith V. Tyler,
                       Regional Inspector General for Evaluation and Inspections of the Dallas
                       regional office, and Kevin Golladay, Assistant Regional Inspector
                       General of the Dallas regional office. Other principal Office of
                       Evaluation and Inspections staff who contributed include:

                       Amy Ashcraft, Team Leader
                       Clark Thomas, Project Leader

                       Blaine Collins, Program Analyst

                       Ruth Ann Dorrill, Program Analyst

                       Sarah Craren, Program Analyst

                       Susan Wolfe, Program Analyst

                       Sandy Khoury, Program Specialist



                       Technical Assistance

                       Barbara Tedesco, Mathematical Statistician

                       Kevin Farber, Mathematical Statistician

                       Scott Horning, Program Analyst



                       Field Assistance

                       Tara Bernabe, Program Analyst, Philadelphia
                       Sylvia Chin, Program Analyst, San Francisco

                       Tricia Fields, Program Analyst, Kansas City

                       Graham Rawsthorn, Assistant Regional Inspector General, Atlanta

                       David Rudich, Program Analyst, New York

                       Marco Villagrana, Program Analyst, Chicago




OEI-06-03-00410        N U R S I N G H O M E E N F O R C E M E N T: A P P L I C A T I O N   OF   M A N D AT O RY R E M E D I E S   26
